U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

February 2, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Shannon Keith Harris v. United States of America,
S.Ct. No. 20-6832

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 5,
2021, and placed on the docket on January 11, 2021. The government’s response is due on
February 10, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including March 12, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-6832
HARRIS, SHANNON KEITH
USA

JOSHUA BRADLEY LAKE
FEDERAL PUBLIC DEFENDERS OFFICE
440 LOUISIANA STREET
SUITE 1350
HOUSTON, TX 77002
713-718-4600

